<html>
<title> - LEGISLATIVE HEARING ON S. 518, A BILL TO AMEND THE FEDERAL WATER POLLUTION CONTROL ACT TO PROVIDE FOR TECHNICAL ASSISTANCE FOR SMALL TREATMENT WORKS, S. 692, THE ``WATER INFRASTRUCTURE FLEXIBILITY ACT OF 2017'' AND S. 675, THE ``LONG ISLAND SOUND RESTORATION AND STEWARDSHIP ACT''</title>
<body><pre>[Senate Hearing 115-12]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 115-12
   LEGISLATIVE HEARING ON S. 518, A BILL TO AMEND THE FEDERAL WATER 
  POLLUTION CONTROL ACT TO PROVIDE FOR TECHNICAL ASSISTANCE FOR SMALL 
TREATMENT WORKS, S. 692, THE ``WATER INFRASTRUCTURE FLEXIBILITY ACT OF 
2017'' AND S. 675, THE ``LONG ISLAND SOUND RESTORATION AND STEWARDSHIP 
                                 ACT''

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON FISHERIES, 
                          WATER, AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
 
                           ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-243PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
        
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                              ----------                              

             Subcommittee on Fisheries, Water, and Wildlife

                    JOHN BOOZMAN, Arkansas, Chairman
JAMES M. INHOFE, Oklahoma            TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
DAN SULLIVAN, Alaska                 CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JOHN BARRASSO, Wyoming (ex officio)  THOMAS R. CARPER, Delaware (ex 
                                         officio)
                                         
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 28, 2017
                           OPENING STATEMENTS

Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...     1
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......     2
Boozman, Hon. John, U.S. Senator from the State of Arkansas......     8
Duckworth, Hon. Tammy, U.S. Senator from the State of Illinois...    10
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York    11

                               WITNESSES

Gray, Richard, Mayor, City of Lancaster, Pennsylvania............    12
    Prepared statement...........................................    14
Sternberg, Dennis, Executive Director, Arkansas Rural Water 
  Association....................................................    35
    Prepared statement...........................................    38
Crotty, Erin M., Executive Director, Audubon New York............    41
    Prepared statement...........................................    43

                              LEGISLATION

S. 518, the ``Small and Rural Community Clean Water Technical 
  Assistance Act''...............................................    72
S. 692, the ``Water Infrastructure Flexibility Act of 2017''.....    76
S. 675, the ``Long Island Sound Restoration and Stewardship Act''    92

 
   LEGISLATIVE HEARING ON S. 518, A BILL TO AMEND THE FEDERAL WATER 
  POLLUTION CONTROL ACT TO PROVIDE FOR TECHNICAL ASSISTANCE FOR SMALL 
TREATMENT WORKS, S. 692, THE ``WATER INFRASTRUCTURE FLEXIBILITY ACT OF 
2017'' AND S. 675, THE ``LONG ISLAND SOUND RESTORATION AND STEWARDSHIP 
                                 ACT''

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Water, and Wildlife,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:15 p.m. in 
room 406, Dirksen Senate Building, Hon. John Boozman (Chairman 
of the Subcommittee) presiding.
    Present: Senators Boozman, Wicker, Fischer, Duckworth, 
Cardin, and Gillibrand.
    Senator Boozman. The meeting will come to order.
    I would like to welcome everyone to today's legislative 
hearing. We are reviewing three bills: S. 518, the Small and 
Rural Community Clean Water Technical Assistance Act, the Water 
Infrastructure Flexibility Act of 2017, and S. 675, the Long 
Island Sound Restoration and Stewardship Act.
    The sponsors of these bills also sit on the Armed Services 
Committee which has a conflicting meeting in just a few 
minutes. What we would like to do is let them go first. I am 
going to recognize Senator Wicker, Senator Fischer, and Senator 
Gillibrand and let them make remarks about their legislation.
    Then I will give my opening statement followed by Ranking 
Member Duckworth. We will then proceed to the testimony.
    Would you like to start, Roger?

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman, for accommodating 
our schedule this afternoon.
    I am at this moment here to talk about S. 518, which deals 
with sewer systems that serve fewer than 10,000 people. 
Frankly, in the United States of America, some 80 percent of 
public sewer systems are in that category.
    Many of these small communities often face significant 
challenges in complying with Federal rules, and it is also 
costly.
    S. 518 provides some relief in the form of technical 
assistance and training to assist small communities in securing 
the necessary technical expertise to improve and protect their 
water resources.
    Specifically, under my legislation the EPA Administrator 
would have authority to direct funding to non-profit 
organizations to provide onsite assistance, regional training, 
assistance with implementation of monitoring plans, rules, and 
regulations to ensure compliance with the Clean Water Act.
    I might mention to my colleagues that a similar initiative 
has already been in effect with regard to effective 
implementation of the Safe Drinking Water Act. This would add 
the Clean Water Act to that. I believe this program would share 
the same success for rural community wastewater systems.
    The bill would also one other thing. It would allow States 
to use up to 2 percent of their Clean Water State Revolving 
Loan Fund for technical assistance for these small systems.
    My appreciation goes out to our colleague, Senator 
Heitkamp, for being the lead Democrat on this bill and to 
members of this Committee, Senators Barrasso, Boozman, and 
Capito, for also signing on as co-sponsors. There is a great 
need for this. I urge its adoption at the appropriate time.
    I thank my colleagues for their attention.
    Senator Boozman. Thank you. We thank the Senator from 
Mississippi.
    Now we will go to our Senator from Nebraska.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman and also the 
Ranking Member for holding this hearing today. I thank the 
Committee for coordinating the schedule with today's 
conflicting Armed Services Committee briefing.
    I would also like to thank Mayor Gray for providing 
testimony today on behalf of the U.S. Conference of Mayors and 
the other witnesses for their willingness to share their time 
and experience with our Subcommittee.
    Last week I introduced S. 692, the Water Infrastructure 
Flexibility Act, with Senators Brown, Cardin, Boozman, Portman, 
Blunt, and Booker. Our bipartisan legislation would provide 
local communities with increased flexibility when complying 
with Clean Water Act requirements for updates to water 
infrastructure projects.
    The bill would also give communities more independence as 
they prioritize and plan for wastewater and stormwater 
investments. More than 700 local communities across the country 
face mandates from the EPA to comply with Clean Water Act 
requirements.
    In my home State of Nebraska, the city of Omaha was hit 
with a $2 billion unfunded Federal mandate from the EPA. 
Specifically, Omaha was required to update its combined sewer 
overflow system.
    We all want clean and safe drinking water but an expensive, 
one size fits all approach handed down from Washington does not 
work.
    According to the U.S. Conference of Mayors, on average, 
municipalities spend between 6 to 7 cents of every tax dollar 
on water and sewer systems. This makes water infrastructure the 
third largest expense for cities after education and emergency 
personnel.
    Local communities forced to comply with these costly 
mandates have no choice but to pass these costs on to families 
through higher utility bills. For example, in 2014 the city 
council in Omaha, Nebraska, approved a sewer rate increase of 
approximately 45 percent over several years. This hurts the 
most vulnerable in the community, our low and fixed income 
families.
    The Water Infrastructure Flexibility Act would allow 
municipalities to prioritize investments in storm and waste 
water projects needed for CWA compliance. It would also 
establish an Office of Municipal Ombudsman at the EPA to assist 
cities in complying with Federal environmental laws.
    Most importantly, our bill requires the EPA to revise this 
regulation to make it more affordable.
    The U.S. Conference of Mayors, the National Association of 
Counties, the National League of Cities and the National 
Association of Clean Water Agencies have all endorsed this 
bill. I am grateful for their support. I would ask unanimous 
consent that their letters of support be included in the 
record.
    Senator Boozman. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Fischer. Thank you, sir.
    We all want clean water. Our bill helps us work toward that 
important goal without unnecessarily burdening families along 
the way.
    I would like to thank my colleagues for joining me on this 
legislation, and I look forward to working with each of you as 
we move forward to address our Nation's infrastructure needs.
    Thank you, Mr. Chairman.
    Senator Boozman. Thank you very much, Senator Fischer.
    We are going to have our opening statements. I will speak 
first and then our Ranking Member. If Senator Gillibrand pops 
in we will pause because she also needs to be at Armed 
Services.
    The reality now is we all have two or three things going on 
at the same time. There is a lot going on up here.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. As a former member of the House 
Transportation and Infrastructure Committee and now part of the 
Senate Environment and Public Works Committee, I understand the 
importance of infrastructure investment.
    During my time in Congress I have been a constant advocate 
for water resources development and infrastructure. In the 
114th Congress the Senate EPW and full Congress demonstrated 
its commitment to infrastructure with the bipartisan--I 
emphasize bipartisan--passage of two bills, the Water 
Infrastructure Improvement for the Nation Act as well as the 
comprehensive highway bill, the Fixing America Surface 
Transportation Act. I was very pleased to support both.
    Passing these pieces of legislation was a major step 
forward. However, there is still more to be done. I am looking 
forward to the opportunities we will have to make investments 
in the 115th Congress. I am really looking forward to working 
with Senator Duckworth in that capacity.
    Like many Americans I am encouraged by the Trump 
administration's commitment to improving our Nation's crumbling 
infrastructure, following the example set by President Dwight 
Eisenhower in establishment of the interstate highway system.
    It is clear that infrastructure investment boosts our 
economy, creates immediate jobs, and produces decades of 
economic opportunity.
    Unfortunately, since the President signed the Federal Aid 
to Highway Act of 1956 we have relied on a fix as fail approach 
to our Nation's infrastructure. Not only is the fix as fail 
approach more expensive, increasingly causing delays to 
commerce, but it also poses a risk to public safety.
    The United States faces a multi-hundred billion dollar 
shortfall for water infrastructure investments which includes 
drinking water, sewer, and water supply projects. This shortage 
is reflected in the American Society of Civil Engineers' 
overall grade for America's infrastructure as a D+.
    America is now at a crossroads. We need to address our 
aging infrastructure, but it comes with a cost. We have options 
that can help fund infrastructure projects so we can get 
shovels in the ground and projects underway.
    The Federal Government has provided funding to establish 
revolving loan grant programs administered by the States as 
well as resources through the Water Infrastructure Finance 
Innovation Act.
    This program leverages small investments to make sure that 
taxpayers get the most bang for the buck. However, solving 
America's infrastructure crisis is not just about funding. We 
also need to make investing in infrastructure more affordable.
    Once investments have been made, smaller communities may 
need technical assistance with operation and maintenance. Of 
course planning is needed to help us make wise investments.
    One example of Congress providing these tools is the Water 
Supply Cost Savings Act, which I co-sponsored and was included 
in another bill. This legislation provides a technical 
clearinghouse that encourages cost effective approaches to 
bring affordable, quality drinking water to rural America, 
which is so very important.
    With this bill we help to ensure that rural States--such as 
Arkansas--are not overburdened by major new infrastructure 
investments. The three bills we are reviewing today provide 
further examples of how we can help communities meet the 
requirements of the Clean Water Act.
    We all want clean water, but communities are being asked to 
do more and more. These requirements are all coming at once 
where there are mandates to update treatment plants, to address 
nutrients, mandates to control stormwater flows, or mandates to 
address combined or sanitary sewer overflows. There are lots of 
unfunded mandates.
    The question is not whether communities are going to 
address these issues. However, we have to recognize there are 
limits to how fast a community can act, particularly when many 
clean water mandates can cost hundreds of millions and in some 
cases billions of dollars.
    Senator Fischer's bill, the Water Infrastructure 
Flexibility Act of 2017, helps address this issue. This 
legislation, which I am also co-sponsoring, allows communities 
to put all their Clean Water Act obligations into a single plan 
and then implement that plan over time, making the investments 
that provide the greatest environmental and economic benefits 
first instead of trying to do everything at once.
    Another issue is whether a community has the technical 
capability to meet Clean Water Act mandates. Many wastewater 
treatment systems operated by small and rural communities have 
few staff and limited resources.
    As a result, they may lack the expertise to maintain 
compliance with Clean Water Act requirements and may not be 
able to afford a full-time technical expert. On-site technical 
assistance and education offered by circuit riders provides a 
cost effective way to address this issue.
    Senator Wicker's bill, the Small and Rural Community Clean 
Water Technical Assistance Act, addresses this issue by 
authorizing funding for rural water circuit riders.
    Under this bill, of which I am also a co-sponsor, funding 
for this program can come directly from EPA. In addition the 
bill also allows States to set aside a part of their State 
Revolving Loan Fund's money for this purpose.
    Finally, we want to know the wisest investments we can make 
to achieve clean water. Senator Gillibrand's bill, the Long 
Island Sound Restoration and Stewardship Act, addresses this 
issue for the waters of Long Island.
    This bill reauthorizes two existing programs that helped 
New York and Connecticut develop, adapt, and implement the Long 
Island Sound Comprehensive Conservation and Management bill and 
helped restore the coastal habitat.
    I look forward to hearing the views of our witnesses on 
these bills and how we can promote flexibility, technical 
assistance and good planning.
    Senator Boozman. I now recognize Senator Duckworth for an 
opening statement.

          OPENING STATEMENT OF HON. TAMMY DUCKWORTH, 
            U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    Good afternoon, everyone. Thank you to Chairman Boozman for 
convening this important conversation and to all of our 
witnesses for joining us today. Welcome to rainy DC where the 
cherry blossoms are not as in full bloom as we would like but 
still lovely nonetheless.
    I believe that infrastructure issues broadly can be a 
bright spot of bipartisanship for this Subcommittee and our 
full Committee as well as Congress. Whether it is rural areas 
or urban areas, coastal or plains States, communities across 
this country are grappling with finding ways to provide 
infrastructure that is strong and safe.
    Not only are there challenges all across this country, 
these challenges are often similar. They also have a pressing 
need to prioritize this issue now all across the Nation.
    As we discuss three bills before us today, I would like to 
highlight that each bill in its own way addresses issues I hear 
so many communities in Illinois complaining about. They provide 
communities with the capacity they need to take care of 
themselves and their residents.
    The Water Infrastructure Flexibility Act will supply local 
governments the technical capacity so that they may better 
comply with requirements under the Clean Water Act. The Small 
and Rural Community Clean Water Technical Assistance Act has a 
similar objective. In this bill we provide small communities 
the work force capacity they would not otherwise have access 
to.
    Finally, everyone should support programs like the Long 
Island Sound Restoration and Stewardship Act which would give 
the region the capacity to coordinate restoration activities 
with other Federal activities.
    Clearly, capacity can come in different shapes and sizes. 
However, regardless of the form, the returns are substantial 
and in some cases, critical.
    I am excited to work with all of you and hope that our 
hearing today will be the first of many to come where we will 
come together, hear ideas, and consider solutions to these very 
urgent issues.
    Thank you again, Mr. Chairman.
    Senator Boozman. Thank you.
    Senator Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman and Madam 
Ranking Member.
    I am very grateful for this subcommittee hearing today and 
for including my bill, the Long Island Sound Restoration and 
Stewardship Act, on the agenda today.
    I would like to welcome my friend, Erin Crotty, and thank 
her for her testimony today. We went to high school together. 
Erin is the Executive Director of Audubon New York and a former 
commissioner of the New York State Department of Environmental 
Conservation.
    Audubon New York has been an important partner in 
protecting the Long Island Sound. I am so pleased Erin could be 
here today to give the perspective of those who work on the 
ground every day and see the benefits of Federal investment in 
restoring the Sound.
    Thank you, Erin, for being here and for traveling from New 
York.
    Mr. Chairman, the legislation I re-introduced this 
Congress, along with Senators Blumenthal, Schumer, and Murphy 
is identical to the bills that have unanimously passed this 
Committee in previous Congresses.
    It has strong bipartisan support from the New York and 
Connecticut delegations in the House, as well as from the local 
communities in the Long Island Sound Watershed.
    Long Island Sound is an estuary of national significance 
that contributes up to $37 billion to the regional economy each 
year. To protect this resource, my legislation would 
reauthorize through fiscal year 2023 our Federal commitment to 
helping our communities in New York and Connecticut restore and 
maintain the health of Long Island Sound and its ecosystems.
    For every $1 in Federal funds appropriated to the Long 
Island Sound program, $87 is leveraged from other sources. We 
have seen the results from our investment. Federal funding has 
already helped to significantly reduce by millions of pounds 
the amounts of nitrogen entering the Sound from sewage 
treatment plants.
    We have protected thousands of acres of habitat land, but 
there is still work to be done to reduce pollution and protect 
vital ecosystems in and around the Sound for millions of my 
constituents who live and work near it and want to enjoy its 
natural resources for recreation.
    I thank the Committee for once again considering this 
legislation. I hope we can move quickly through Congress so we 
can get it to the President's desk.
    Thank you both.
    Senator Boozman. Thank you.
    Let us now go to our witnesses.
    Mr. Gray.

               STATEMENT OF RICHARD GRAY, MAYOR, 
                CITY OF LANCASTER, PENNSYLVANIA

    Mr. Gray. Good afternoon, Mr. Chairman and members of the 
Committee.
    My name is Rick Gray, and I am the Mayor of the city of 
Lancaster, Pennsylvania, a city of 60,000 people in 7 square 
miles.
    The Water Infrastructure Flexibility Act is a positive step 
in acknowledging that we need to approach our water and 
wastewater issues in a more practical and cost effective 
manner.
    Attached to my testimony is a letter signed by the U.S. 
Conference of Mayors, the National League of Cities, and the 
National Association of Counties that encourages all Senators 
to co-sponsor this legislation.
    During intense rain storms, due to impervious services and 
our combined stormwater/wastewater system millions of gallons 
of untreated wastewater can be caused to overflow into our 
river.
    The city has been proactively implementing a comprehensive 
stormwater program to improve water quality, meet regulatory 
compliance, and address stormwater challenges using gray as 
well as green infrastructure.
    Since 1999 the city of Lancaster has been implementing a 
State-approved, long-term control plan investing $80 million in 
gray infrastructure improvements. We are close to meeting the 
85 percent captured goal set forth by EPA.
    If Lancaster used gray infrastructure, this remaining 15 
percent would cost an estimated $300 million.
    After more than a year of evaluation and many public input 
sessions, Lancaster determined that a $140 million investment 
in green infrastructure with other gray system improvements 
over the next 25 years could accomplish the remaining 
compliance for the system.
    In 2011 Lancaster adopted a green infrastructure program 
establishing an integrated stormwater management to reduce 
combined sewage overflows in a more cost effective and 
environmentally sustainable manner.
    Lancaster has completed 45 green infrastructure programs at 
a cost of over $10 million. This has resulted in the capture of 
45 million gallons of stormwater annually. EPA Region 3 and EPA 
Headquarters have lauded our program and held Lancaster up as a 
model for other cities to replicate.
    Yet EPA's Enforcement Division continues aggressive actions 
including threats of civil penalties in the seven figure range 
to press us to use costly gray technology rather than allowing 
Lancaster time to implement a more sustainable green solution.
    Lancaster's story illustrates that a new direction for EPA 
is necessary, one that will allow cities the flexibility to opt 
for more sustainable and resilient green infrastructure 
technologies.
    Since the beginning of Lancaster's implementation we have 
had significant rate increases. I believe they were 130 percent 
since 2003 plus a stormwater fee. Rate increases for our 
customers disproportionately affect the disadvantaged 
populations of our community.
    This is a community in which 29 percent of our households 
have incomes of less than $20,000. These programs are shared by 
many cities.
    The Mayors' message to Congress is that renewing public 
water infrastructure and delivering safe water is becoming less 
affordable. Sewer and stormwater mandates are expensive and may 
not address the highest local environmental or public health 
concerns of a city.
    I would like to call your attention to four important 
points of the Nation's mayors. One, codify EPA's integrated 
planning and permitting policy. Integrating planning should be 
designed to allow cities to develop comprehensive plans and 
establish a plan of investment over time to reach these goals.
    Two is achieving long-term control of stormwater through 
permits. We urge Congress to create a path of long-term goals 
that exist through the permitting process rather than by way of 
consent decrees.
    Third is renewed congressional support for exercising 
flexibility in existing clean water law.
    Fourth is eliminating civil fines in consent decrees for 
local governments that develop integrated plans and make 
reasonable progress in improving their waters.
    I wish to thank the Committee for this opportunity to speak 
before you today.
    Thank you.
    [The prepared statement of Mr. Gray follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Senator Boozman. Thank you very much for your testimony.
    I did not go to school with him, but I do want to 
especially thank Dennis Sternberg for being here from 
Greenbrier, Arkansas. I have had the opportunity to work with 
him for the last several years. He does a tremendous job.
    As of January 2017 Mr. Sternberg has spent 38 years in the 
water and wastewater industry in Arkansas with 29 of those 
years spent working in almost field positions as a field rep, 
EPA program manager, USDA circuit rider, and wastewater 
technician trainer.
    He and his Rural Water Association staff are committed to 
the future of rural communities by assisting utilities 
throughout the State with their many challenges that rural, 
small utilities continue to face.
    He holds the highest in water and wastewater licenses in 
Arkansas. In 2006 he received the Executive Director of the 
Year Award from the National Rural Association. In 2009 the 
U.S. Department of Agriculture and National Rural Water 
Association recognized Dennis for leadership in emergency 
response preparations.
    Thank you for many, many years of service to the people of 
Arkansas. Now you can give your testimony.

  STATEMENT OF DENNIS STERNBERG, EXECUTIVE DIRECTOR, ARKANSAS 
                    RURAL WATER ASSOCIATION

    Mr. Sternberg. Thank you, Senator.
    Good afternoon, Chairman Boozman and members of the 
Committee. It is an honor to be here and we are grateful that 
you have included a voice for rural America at this hearing.
    My name is Dennis Sternberg, and I am the Executive 
Director of the Arkansas Rural Water Association, a non-profit 
association of 563 small and rural community water utilities in 
Arkansas.
    I am also a representative of the National Rural Water 
Association which has over 31,000 community members. Our 
mission is to enhance drinking water and wastewater service, 
safety, compliance, and quality in small and rural America.
    My main message to the Committee today is that the small 
and rural communities in all States strongly support S. 518, 
the Small and Rural Community Clean Water Technical Assistance 
Act.
    We urge the Committee and the Senate to pass it as soon as 
possible to help small communities with the operation of their 
wastewater utilities and compliance with all the Federal 
regulations under the Clean Water Act.
    We are very appreciative of Senators Wicker and Heitkamp's 
sponsorship of the bill, and I will explain why the legislation 
is helpful and merits enactment.
    Most all of our country's sewer systems or wastewater 
utilities are small. Approximately 80 percent of the country's 
approximately 16,000 wastewater utilities serve a population of 
fewer than 10,000 persons.
    In Arkansas, for example, approximately 340 of the 370 
community wastewater utilities serve small communities. In 
Illinois it is approximately 700 of 800; in Maryland, it is 130 
of 170; and in Mississippi, it is approximately 270 of 300.
    Small and rural communities have more difficulty affording 
public wastewater service due to lack of population density and 
lack of economies of scale. This challenge is compounded by the 
fact that rural communities have lower average median household 
incomes and often have higher rates of poverty.
    Likewise, we have a much more challenging time complying 
with our Federal Clean Water Act permits and operating complex 
wastewater treatment systems due to the lack of technical 
resources in small communities. While we have fewer resources, 
we are regulated in the exact same manner as a large community.
    S. 518 provides a solution to the lack of technical 
resources in small communities by providing technical experts--
we call them circuit riders--in each State, to be shared by all 
small and rural communities who are in need of assistance.
    A circuit rider is a person with expertise in wastewater 
treatment operation, maintenance, governance, and compliance 
who constantly travels the State to be available onsite to any 
community in need of assistance.
    For these circuit riders to be effective and helpful, they 
must be available to travel directly to any given community to 
work specifically with a community's leaders with unique 
treatment and personally educate that operator, mayor, or other 
local officials on how to solve their problems.
    They have to be available when the community needs the help 
which can be nights, winters, after natural disasters, and 
weekends. Also, they must be non-regulatory to gain the trust 
of the local communities.
    The small town of Kensett, Arkansas, provides a good recent 
example of technical assistance. Last year the Kensett 
Waterworks called for help with their sewer systems concerning 
a problem with their activated sludge plant. The plant had 
suddenly become upset and out of compliance.
    A rural water circuit rider was dispatched and traveled to 
the community, inspected the plant and their records and 
noticed a decline in the sample results over a 4-month period. 
The circuit rider disassembled the activated sludge return pump 
and line to clean them and found the cause of the problem. The 
line had been blocked by biological growth.
    After clearing the lines and pumps, the circuit rider 
recommended they feed some artificial enzymes and food 
supplements to try to jump-start the recovery of the activated 
sludge plant.
    In addition to providing the technical solution to their 
problem, this assistance saved the community approximately 
$1,000 per day in potential fines. If enacted and appropriated, 
S. 518 would allow for thousands in similar assistance events 
each year throughout the Nation.
    Senator Wicker had a similar bill pass about a year ago to 
provide small communities with circuit rider assistance for the 
Safe Drinking Water Act and drinking water treatment utilities.
    However, we have not been able to have that legislation, 
Public Law 114-98, specifically cited in the EPA appropriations 
bill which is preventing that technical assistance funding from 
reaching rural Arkansas, Mississippi, Illinois, Maryland, and 
other States.
    Any assistance you can provide to correct these issues with 
the EPA Appropriations Subcommittee is greatly appreciated. 
This committee is very important to rural and small town 
America. We are grateful for the opportunity to testify today 
and grateful for the numerous opportunities this committee has 
provided rural America to testify and to be included in 
crafting of the Federal water and environmental legislation.
    Thank you.
    [The prepared statement of Mr. Sternberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Boozman. Thank you very much.
    Ms. Crotty, you are welcome to go now. I will give you some 
extra time if you would like to tell some stories about Senator 
Gillibrand.

 STATEMENT OF ERIN M. CROTTY, EXECUTIVE DIRECTOR, AUDUBON NEW 
                              YORK

    Ms. Crotty. I think I will take a pass on that, Senator.
    Good afternoon Chairman Boozman, Ranking Member Duckworth, 
and Senator Gillibrand. I really want to thank you for allowing 
me to testify on Senate Bill 675, the Long Island Sound 
Restoration and Stewardship Act.
    I would especially like to thank Senator Gillibrand from my 
home State for being a champion for our shared environment and 
for sponsoring this critically important legislation.
    My name is Erin Crotty. I am the Executive Director of 
Audubon New York and also Vice President of the National 
Audubon Society. Audubon's mission is to protect birds, their 
habitats, and the places they need to survive throughout their 
entire life cycle.
    For decades Audubon's united network of members, 
volunteers, chapters, national, New York State, and Connecticut 
offices have worked hard to protect and restore Long Island 
Sound and its watershed. Here is why.
    Long Island Sound is a globally significant ecosystem for 
birds, fish, and other wildlife. It is a 1,320-square-mile 
estuary of the Atlantic Ocean and borders 600 miles of New York 
and Connecticut.
    The Sound supports 54 important bird areas which are the 
most important places for birds, 14 of which are globally 
important.
    It is an estuary of national significance. The Sound is 
home to one of the most important tern nesting sites on earth, 
Great Gull Island, with approximately 10,000 pairs of common 
terns and more than 1,000 pairs of the federally endangered 
roseate tern.
    The Sound supports over 1,200 species of invertebrates, 170 
species of fish, and dozens of species of migratory birds, 
including the federally threatened piping plover and red knot. 
Twenty-three million people--7 percent of the total U.S. 
population--live within 50 miles of the Sound, and it is 5 
miles from the heart of the country's most populated city, New 
York. The Sound generates an impressive $9.4 billion annually 
to the regional economy.
    It is for these reasons that Audubon strongly supports the 
Long Island Sound Restoration and Stewardship Act. The Act 
authorizes the Long Island Sound program in the Environmental 
Protection Agency and the Long Island Stewardship Act through 
fiscal year 2023.
    The Act authorizes up to $40 million annually for grants to 
support the Sound's Comprehensive Conservation Management Plan 
and up to $25 million annually to procure and enhance sites 
within the Sound's watershed and adds critical functions to the 
Long Island Sound Study Office including to study the 
environmental impacts on the Sound's source waters.
    The Act is a common sense approach to modern estuary 
protection and helps meet the Federal Government's share of the 
funding needed. The Federal funding, which is often the driver 
for projects moving forward, will be leveraged with other 
Federal, State, local, and private investment.
    On average, the estuaries of the National Estuaries 
Program, of which the Long Island Sound Study is one, raises 
$18 for every $1 provided by the EPA. That is a significant and 
meaningful leverage ratio.
    While the health of the Sound has improved, threats do 
continue. For nearly 30 years this comprehensive effort has 
resulted in measurable improvement to the Sound's health, and 
Audubon has been there every step of the way.
    Water quality has improved, habitat has been restored, and 
open spaces protected, which has resulted in the Sound teaming 
with wildlife and people. Nitrogen is being reduced from 
wastewater treatment plants, habitat is being restored, 
millions of people are being engaged, and dead zones are 
shrinking. Bald eagles are nesting, and species are returning--
like the humpback whales and bluefish, yet the health of the 
Sound is still threatened. Today's threats are more diffuse and 
challenging.
    A changing climate, extreme weather events, acidification, 
nitrogen discharges from stormwater and septics, aging and 
broken infrastructure, brown tide, invasive species, 
development pressure, and rising sea levels are literally 
squeezing out the habitat for birds and other wildlife. These 
are the challenges facing the Sound today. The collaborative 
and integrated effort enabled by the Act is more important than 
ever.
    The Sound's CCMP was updated in 2015, and the vision is one 
of clean water that is protected and nourished, abundant and 
diverse wildlife, flourishing commercial fisheries, accessible 
harbors, and a public that protects and sustains the ecosystem.
    The Act helps us--governments at all levels--the private 
sector, non-governmental organizations, including Audubon, and 
the public reach that vision.
    The Nation's National Estuaries Program faces an uncertain 
future. The Trump administration has reportedly proposed to 
eliminate funding for EPA's Categorical Grants which Audubon 
believes includes the 28 estuaries of the NEP, including the 
Sound.
    The NEP is a cost effective, non-regulatory program that 
harnesses the power of on-the-ground stakeholders by providing 
them with a structure to collaborate, develop, and implement a 
long-term plan to guide their efforts.
    Over one-half of our country's population lives within 100 
miles of coasts, and more and more people are moving there. 
With a leverage ratio of 18 to 1 and $4.2 billion leveraged 
with an investment of $230 million in EPA grants, the NEP has 
proven to be a highly effective and efficient program.
    Audubon strongly encourages Congress to resist this short 
sighted effort to cut the program.
    Thank you very much for the opportunity to testify today. 
Help us make a difference for the birds, the wildlife and the 
people that rely on the Sound for survival and a high quality 
of life by taking action on Senate Bill 675, the Long Island 
Sound Restoration and Stewardship Act.
    Thank you very much.
    [The prepared statement of Ms. Crotty follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boozman. Thank you, Ms. Crotty.
    Senator Gillibrand.
    Senator Gillibrand. Thank you so much, Ms. Crotty, for your 
testimony. I have two basic questions.
    Can you tell the Committee, for the record, what would be 
the environmental and economic impact if Congress no longer 
funded the Long Island Sound Program? Can you more fully 
describe the level of coordination between the Federal 
Government, State, local, and NGO stakeholders to carry out 
projects to restore and protect the Sound?
    I ask this because that leverage is really significant. I 
think it is important for the Federal Government to know it is 
not just Federal dollars at stake here. It is a lot of other 
dollars that come because of Federal leadership.
    Ms. Crotty. Thank you, Senator.
    The Long Island Sound Study Program of EPA really is the 
lynchpin or the catalyst, if you will, of pulling all of the 
parties working on restoring Long Island Sound which is a bi-
State effort and involves all of the levels of government and 
certainly not-for-profit organizations and municipalities.
    It really is that glue that holds us together and working 
toward a common vision in the CCMPs in order to protect and 
restore this estuary of national significance. The money we 
find from the Long Island Sound Program is often the catalyst 
for a project to move forward.
    All of these programs are co-funded. It is very rare when 
you have a wastewater treatment plant upgrade, a habitat 
restoration project, or an open space project that is not 
leveraged with private and public dollars.
    It would be extremely detrimental to the progress we have 
made and certainly all of the challenges that we have left if 
the reauthorization did not happen.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you so much.
    Ms. Crotty. Thank you.
    Senator Boozman. Thank you.
    I am going to ask Mr. Gray a question. I would like you to 
respond also, Ms. Crotty. It is going to be about green.
    Mayor Gray, according to your testimony it costs the city 
of Lancaster $80 million to capture 85 percent of flows from 
your combined sewers. I assume capturing the remaining 15 
percent is difficult because the technology gets difficult to 
do that.
    In many cases in Arkansas, we have situations where that 
happens, but there is really no measurable difference as far as 
the streams and things like that. That little extra is costing 
you so much, $300 million.
    To me it is a classic example of the diminishing returns 
that you get at some point. I do not really know where that is, 
but at some point you get really diminishing returns.
    It also points out the need to try new approaches, which 
you are doing. You have gotten a lot of credit for it, and yet 
you really do not get credit for it as far as enforcement. Tell 
me about the barriers you faced to using the green 
infrastructure approach.
    Ms. Crotty, again, the potential of having a portion of 
$300 million in green is a lot of green, and if that would or 
would not be beneficial, trying to figure out the commonsense 
approach with these things.
    Yes, sir.
    Mr. Gray. Senator, all politics are local. In Lancaster we 
have combined green infrastructure with park improvement, 
intersection improvement, and private alley improvement. We 
funded through the State Revolving Fund loan, we got many 
demonstration projects on the local level.
    In doing that, when we do a park, for example, and put in 
green infrastructure, we have one park with six basketball 
courts, all with drain fields underneath them, all of which are 
impervious.
    When we do those types of projects, the people of Lancaster 
know the neighborhood, know the improvements that have been 
done in their neighborhood. It becomes a cost effective problem 
at a certain point. How are we going to pay for this?
    After 3 or 4 years of doing improvements, green 
infrastructure improvements with visible side benefits, the 
public was ready, and we imposed a stormwater fee. You would 
think the people would be up in arms with a stormwater fee, but 
people related to it as visible improvements in their 
neighborhoods, their parks, their streets, their intersections, 
and the rain gardens we have put all over the city.
    They have seen visible improvements which with 
infrastructure very often you cannot see what is being done. 
When it came time to impose a stormwater fee to pay for a lot 
of this, two people showed up at the city council to oppose it, 
lawyers for the two biggest parking lots in the city. The 
residents were ready to say, we are willing to do our part.
    Through a little creative politics over a 3- or 4-year 
period, the people in the community actually bought into it and 
were actually agreeable to doing it.
    The problem with the gray infrastructure, the cost of the 
gray infrastructure, is they want it done now. It must be done 
immediately. You have to put in a holding tank or put in two 
holding tanks at $300 million.
    As compared to green infrastructure which takes time to put 
in and time for its benefits to be realized, a sense of urgency 
I think is one of the biggest problem, the sense of urgency 
imposed upon us.
    Senator Boozman. Ms. Crotty.
    Ms. Crotty. Thank you, Senator.
    I think that example is quite fascinating. I think what we 
have found all across New York State, particularly on Long 
Island, is when you have the ability to be flexible and devise 
local smart solutions from the start, that is sort of the best 
outcome, being able to integrate green infrastructure, 
resiliency, design into clean water infrastructure projects 
funded by multiple parties including State and Federal 
Government.
    That is the best solution, making sure the various 
regulatory statutes build into regulations the kind of 
flexibility that localities need in order to comply.
    You just described a real quality of life issue. The green 
infrastructure and resiliency components built into some of 
these local projects become a real important part of the 
quality of life for their community.
    It makes it nicer, more accessible, and also improves the 
environment. You definitely have had two big wins there in 
terms of your public policy priorities.
    Senator Boozman. Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Mr. Sternberg, I understand the Trump administration has 
promised eliminating a key program for rural communities, the 
USDA's Water and Waste Disposal Loan and Grant Program.
    I have 776 small and rural communities throughout my State 
that serve 1.4 million customers. I am hearing from them that 
without this program, their ability to guarantee public sewer 
and wastewater systems would be impaired.
    Can you share with me how important a program like the 
Water and Waste Disposal Loan and Grant Program is to small and 
rural communities?
    Mr. Sternberg. Thank you, Senator. That is a very good 
question.
    It is the same thing in Arkansas. We have 700 community 
water systems and 370 wastewater systems. The majority of the 
systems in Arkansas and in most States are those 31,000 
community water systems that represent national rural water 
across the Nation.
    Small, rural communities go the USDA Loan Grant Program for 
their improvements or upgrades. It has happened for over 70 
years. That is the best program out there. It does not cost the 
Federal Government anything because they pay it back. They have 
less than one-half percent delinquency rate.
    That type of program we need. That is infrastructure that 
we are going to continually need. For that system to go out on 
the private market is not going to be the same cost back to the 
ratepayers. It will be exorbitant.
    There is only so much money in the State Revolving Loan 
Fund. In Arkansas the majority of the larger systems are 
accessing that, so the competition is going to be greater.
    Senator Duckworth. Am I correct in saying the bills we are 
discussing today might be supplemental but certainly cannot 
take over the function of this program?
    Mr. Sternberg. Exactly. No.
    Senator Duckworth. Thank you.
    Can you share with me why technical assistance is also very 
important to rural communities and how technical assistance 
authorized in the Wicker bill would work in partnership with 
other programs?
    Mr. Sternberg. The technical assistance for the small and 
rural communities with populations of 10,000 and under are the 
ones that do not have the expertise like Little Rock or 
Jonesboro where they have engineers, chemists, and different 
ones available and the licensed operator at the highest level 
to troubleshoot those types of things.
    They rely on Rural Water. Rural Water has technicians out 
there right now through USDA. We have some contracts through 
EPA and some through our State SRF on the drinking water side, 
but they are designated to certain systems.
    There will be no duplication, and it is needed, drastically 
needed. We train more water and wastewater operators in the 
State of Arkansas than any other agency, including the primacy 
agency.
    Senator Duckworth. I tried getting bifocals, and it looked 
like this table under me was curved, and they made me dizzy, so 
excuse me while I do this.
    Senator Boozman. I am an optometrist, so I will give you 
some help.
    Senator Duckworth. Would you, please, because I got my 
first pair, and they just drive me crazy.
    Mr. Chairman, I would like to ask unanimous consent to 
enter into the record three letters in support of the USDA 
Water and Waste Disposal Loan and Grant Program as well as the 
Water Infrastructure Flexibility Act.
    Senator Boozman. Without objection.
    [The referenced letters follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Senator Duckworth. Thank you so much.
    As I mentioned in my opening remarks, while I support all 
these bills I think there is always room for improvement. For 
example, I would like to work with all of you in making sure 
many of the medium-sized communities in my State are not left 
out.
    Mayor Gray, as you discussed, the city of Lancaster has 
long been working on a green infrastructure plan since 2011. 
Can you share some of the primary and secondary benefits of 
using green infrastructure to address stormwater and wastewater 
projects?
    Mr. Gray. Certainly, Senator.
    There have been three categories of improvements which we 
have seen. Environmental benefits include recharging 
groundwater, protecting and improving water quality, providing 
natural stormwater management, mitigating the heat island 
effect, and reducing energy use. All come from our green 
infrastructure programs.
    Social benefits include increasing recreational 
opportunities, improving health through cleaner air and water, 
and improved psychological well being. Plus, it makes the city 
more attractive to the kind of people you want in the city, the 
millennials.
    A week does not go by that I am not stopped by some younger 
person who tells me they like that the city prides itself on 
being a green city. They like it, they want to move there, they 
want to be a part of it.
    Finally, economic benefits include the future cost of 
stormwater management as well as increasing property values. I 
will give you an example. We have a lot of private alleys in 
Lancaster which are just what they sound like, alleys owned by 
the property owners on both sides.
    We put green alley in one of these private alleys. Within a 
week, the price of a house for sale on the green alley had gone 
up $2,500. There was a small notation in the newspaper 
advertising it as being on ``the green alley.'' They are all 
over the city now.
    We find people who are willing to part with their own 
money, $500 a property owner to put in these types of things. 
There are so many benefits that come from it that are past 
stormwater benefits. Again, environmental, social, and economic 
benefits all come from green infrastructure.
    Senator Duckworth. Thank you. I always find my mayors to be 
the most practical problem solvers. I think you just 
demonstrated that in your answer.
    Mr. Gray. We have to be, Senator.
    Senator Duckworth. You do.
    Thank you, Mr. Chairman.
    Senator Boozman. Thank you.
    The Senator from Nebraska.
    Senator Fischer. Thank you, Mr. Chairman.
    Mayor Gray, since you just received that great compliment 
from the Ranking Member, I have a question for you.
    In your written testimony, you mentioned that the current 
EPA enforcement approach employs aggressive actions, rigid 
methods, and threats of large civil penalties. What are the 
consequences for such an approach for small cities like 
Lancaster?
    Mr. Gray. We have one consent decree we operate under 
already from the American with Disabilities Act. My predecessor 
was sued and rightfully so, and they entered a consent decree.
    Now, for everything we do with our sidewalks and streets, 
we have to go to Philadelphia and get approval from a Federal 
judge who is very nice and sympathetic, but it has taken it out 
of our hands. The practical things have been taken out of our 
hands.
    We met with the EPA, and the EPA region was very supportive 
of our green infrastructure program. Politically, I sold it to 
people that we have to get ahead of the EPA. We want to do this 
before they make us do things. We want to be positive about it. 
We want to be friends with the EPA. We want them to be our 
friends.
    They supported us for years. If you went to a Chesapeake 
Bay meeting and they were having a slide show, there would 
always be a couple of slides the EPA would put up about 
Lancaster. This is what we want, this is what we want you to 
do.
    A few years ago enforcement got involved. I am not sure the 
region and the enforcement division talk to each other because 
it was a totally different attitude. It was you have to do 
this, it must be done now.
    Negotiations have proceeded which are quite costly to the 
city, between experts and lawyers and whatnot. We spent a lot 
of money at this point talking with the EPA. We are trying to 
work out something with them.
    For example, to impose a civil penalty, I am not going to 
pay it. I was in private practice. I represented clients who 
had civil penalties that came off their bottom line. Where does 
the civil penalty of the city of Lancaster come from but out of 
the taxpayers' pocket?
    We are negotiating with them right now. It sort of shocked 
us when they came with that kind of attitude because we thought 
we had a different relationship with them.
    Senator Fischer. My apologies; I gave your city the 
Nebraska pronunciation of Lancaster instead of Lancaster.
    Mr. Gray. You are forgiven, Senator.
    Senator Fischer. How would provisions within the Water 
Infrastructure Flexibility Act help to give cities and counties 
a stronger seat at the table in addressing really the long-term 
strategic water infrastructure needs that you have?
    You said you are working with the EPA and redevelop a good 
working relationship. Do you think my bill would help with 
that?
    Mr. Gray. Absolutely. We think we do have a good working 
relationship with one part of the EPA. We support their goals, 
and we support their efforts.
    The bill has a couple of things in it that would really be 
different and change the culture. The permitting, to have 
permitting and including this all in permitting rather than 
doing it through a consent decree, there is a 20-year decree, 
do it for 5 years. Look at it, work together on it, and see 
what your abilities are.
    There are provisions in there for affordability. Again, the 
city of Lancaster has 29 percent of its families that have 
$20,000 or less income. Affordability is an important issue to 
us. We want to do it, we want to do it right. How much can we 
afford for it?
    Finally, the provision that you take out the civil 
penalties is another approach. Why not use that money to 
implement green infrastructure or gray infrastructure? Why 
penalize us for what has happened in the past?
    Senator Fischer. You mentioned how under the current 
structure, cities are faced with the need to increase rates on 
the families with a regressive impact on those most in need or 
on a fixed income. I am concerned about that as well. A 2 
percent increase on utility rates means a great deal for 
working families.
    Can you explain why the median household income benchmark 
is harmful to low and fixed income families?
    Mr. Gray. Not really.
    Senator Fischer. Do any other panel members wish to address 
that?
    Mr. Sternberg.
    Mr. Sternberg. The median household income for that city or 
area, you still have the lower income people who will be 
affected through it all. There are similar situations in 
Arkansas. We have that same problem.
    You set it at the median household income so the lower 
income people are still getting hit harder because of their 
poverty or whatever the case might be. It is something that 
really needs a hard look.
    Mr. Gray. Again, 29 percent of our population makes less 
than $20,000 per year. We estimated that if you did that it 
would be around $700 a year for water. Right now in the city of 
Lancaster, you might pay $200 a year. It would impact the low 
and moderate income people. That would be a substantial 
increase.
    Senator Fischer. That is what we are trying to address in 
the bill to make sure those people who have low or fixed 
incomes are not hurt disproportionately by the legislation we 
are putting forward and that we are still able to make sure 
that those water infrastructure projects are going to get done.
    Thank you very much.
    Mr. Gray. Thank you, Senator.
    Senator Fischer. Thank you, Mr. Chairman.
    Senator Boozman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here and share a 
story.
    I was helping a local councilman from Baltimore City during 
the elections this year, so I did something that Senators do 
not normally do, I was actually knocking door to door for this 
candidate. I was not on the ballot in Baltimore City.
    There was a theme from every person who answered the door. 
That was the water bills in Baltimore and the affordability to 
the ratepayers.
    I recognized that we have a real problem. That is you have 
an aging water system that needs desperate repair that costs a 
lot of money that has yet to be fully implemented. Certainly in 
Baltimore City it has not been fully implemented. Then you have 
the pressure on the ratepayers that is beyond their 
affordability.
    We have to figure out a way to deal with this real problem 
in our community. I thank the Chairman for his leadership on 
this issue. The two of us have joined together on several 
initiatives to try to deal with water issues.
    I am working now with Senators Fischer and Brown on a bill 
that we think would make the water more affordable by an 
integrated planning process. We require a lot of different 
plans. If we integrated together we can save considerable 
resources for local governments, and by the way, take a more 
holistic approach rather than taking a look at the specific 
program.
    We are hoping that will help deal with some of the 
affordability issues. We are also looking at the median income 
standard for Federal assistance. It is interesting, Mr. 
Chairman, and I want to share this with you.
    I got the numbers for Baltimore City because I found they 
were kind of shocking. Baltimore City shows a relatively high 
median income but when you take a look at the poverty levels in 
Baltimore City, we have a large number of people, the majority 
of people fall under the poverty level. The median income as 
the sole indicator for eligibility we think is just the wrong 
approach.
    We are offering those suggestions in an effort to try to 
make the Federal partnership more available, particularly to 
those jurisdictions that are really being stressed on their 
ratepayers.
    I wanted to make those comments. Thank you for the hearing. 
I would be happy to hear from any of our witnesses who would 
like to respond as to other ways we can provide relief to the 
ratepayers and still get the type of modernization of our water 
infrastructure that is desperately needed, particularly in our 
older communities.
    Mr. Sternberg. I would just say, Senator, as far as rural 
and small communities, that is why what Senator Duckworth 
brought up about the USDA Loan and Grant Program is so 
important.
    If it goes away, water rates will go up in rural and small 
America. There is no way around it. You hit on the larger 
systems having the same issue. I think Congress is doing 
starting something with WIFIA program, funding some of that for 
the larger utilities. I think that is great.
    You are right. You have to be more inventive in how we go 
about doing things like that, but the USDA Loan and Grant 
Program for infrastructure is vital. It has to be put back in 
place.
    Senator Cardin. I strongly support the initiative that came 
out of this Committee. It does not take away, though, the need 
for us to have the basic partnership programs that help in 
regard to water infrastructure.
    Ms. Crotty. Thank you, Senator.
    I was going to mention that under the Clean Water State 
Revolving Fund Model, having the ability to give hardship 
grants and grants to municipalities can be very critical at 
times.
    The other thing I was going to mention was Senator Boozman 
raised the prospect of having a large infrastructure investment 
coming out of Congress potentially this year. Having clean 
water as part of that larger bill I think would be a tremendous 
investment in not only jobs and our economy but also a benefit 
to our environment and our high quality of life.
    We do find in New York State sometimes the grant money that 
does not have to be paid back, it is not the low interest, 
long-term loan but actual grants, having the flexibility to be 
able to give out the grant money becomes a real critical point 
for some of the projects in rural parts of the State and less 
affluent areas.
    Senator Cardin. I would point out that you are correct. 
There is strong interest in an infrastructure bill. It is going 
to be more difficult to deliver than just interest because we 
have to come together.
    What we urge you all to do--and you will have our support--
is whatever infrastructure bill comes out, make sure water is 
included in it. That is not a foregone conclusion because the 
interest on things you see more visibly like roads and bridges 
usually gets more attention than things that are underground 
that people do not see and recognize the desperate need.
    Mr. Chairman, I have a letter from Baltimore City. I would 
ask it be made a part of our record.
    Senator Boozman. Without objection.
    [The referenced letter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Senator Boozman. Let me ask Mr. Sternberg a couple quick 
questions. Can you explain to the committee why circuit riders 
that actually come to your community are more effective in 
providing technical assistance than other approaches like 
Webinars?
    Has EPA shifted support for rural technical assistance away 
from the circuit riders in your experience?
    Mr. Sternberg. The first part of it is the reason for the 
circuit riders and the need to go to the local communities 
versus the Webinars, you are one on one with that operator, 
that mayor, and that council. You can show them their actual 
problem with their system.
    In a classroom or a Webinar, you are just seeing different 
portions and functions at treatment plants. There is no trust 
there. You are just reading something or hearing something. 
When you are with those circuit riders, or those circuit riders 
are there, you build that bond and trust.
    The next issue that comes up with that utility, they will 
call them and call them quickly. That is the reason for the 
circuit riders. You share that cost across all the small and 
rural communities. It is not just one engineer coming out there 
that costs that system to come up with a solution to it. That 
is where the circuit riders are so vital to this project.
    As far as the EPA, we have lost funding through EPA on 
water technicians. Back in 2009 we had a groundwater technician 
fully funded. That runs about $110,000 a year, I think it was. 
Our trainer that was fully funded back then. We are subsidizing 
that by about 45 percent.
    We do not get the money because they spread out the cost to 
the Webinars and different things like that. There is nobody 
going on site like the circuit riders. That is where it 
happens. The rubber meets the road. That is where it is at.
    Senator Boozman. In your testimony, you mentioned the 
circuit riders providing emergency response. Can you give some 
examples of that? Is anyone else out there providing that type 
of assistance?
    Mr. Sternberg. In Arkansas we are very proud of what we do 
in Arkansas Rural Water. We actually have seven big mobile 
generators we can deploy. An example would be February 27, 
2014, my birthday, the tornadoes came through and hit 
Mayflower, Arkansas, and hit Vilonia, Arkansas. It was an F-4. 
It demolished the towns in both communities.
    I was not actually in the State at the time. My staff 
called me, and I said deploy whatever assistance they need. 
Find out and identify the need. Within 24 hours, we had every 
water system, the water and wastewater system in Mayflower, the 
water and wastewater system in Vilonia, up and running. We had 
no SOS or SSOs, sanitary sewer overflows on the sewer system.
    We have four small mobile generators that we use VFDs for 
that we can actually run three-phase motors so we use them on 
the sewer lift stations. We had them on pickup trucks moving 
around station to station. Hardwired them, pumped all the sewer 
down so we never had overflows. We continually had them making 
the rounds.
    The emergency response is very beneficial to the utilities. 
We are the first call. They do not call ADEM, they do not call 
the health department, they do not call ADEQ. They call 
Arkansas Rural Water, and it works.
    Senator Boozman. Mayor Gray, just from years of hearing 
testimony always being on water, I can sympathize with the 
situation you are in as far as your community. I do not know if 
you are a Republican, a Democrat, or whatever; I could care 
less.
    Mr. Gray. It does not matter at the local level. It really 
does not.
    Senator Boozman. Exactly. I am thinking of a community in 
Arkansas with a good friend running the community and working 
very, very hard, really doing much the same things you have 
done and is kind of the poster child for getting on the stick. 
He happens to be a liberal Democrat, so there is no rhyme or 
reason to this thing. It is just communities in general.
    There is a finite amount of money, and we do have to be 
wise and use some common sense as to the final part that you 
are lacking that cost $300 million. We have had testimony from 
the person that runs the unit in Decatur, Washington. They have 
spent, I think, $1 billion, and do not hold me exactly 
responsible.
    They have done a great job. The taxpayer rates have gone up 
dramatically. They are wanting, I think, another $1 billion to 
ratchet down small amount which everyone agrees would not make 
any difference in the quality of the river.
    If you spend a lot of money, relatively speaking, you would 
not need to spend $1 billion, but just think what you could do 
with some of the greenery that you are doing not only to help 
the wildlife but also the quality of life in our communities 
and the adjacent things.
    Again, we appreciate your story.
    We will go now to Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman. I have one 
final question.
    I wanted to ask Mr. Sternberg to elaborate a little bit on 
how the circuit riders perform in emergency situations, kind of 
elaborate on what we talked about just now but in terms of do 
they or do they not help in coordinating with local agencies 
and other Federal agencies in the event of an emergency?
    How is that integrated, and how do you see that happening 
on the ground when there is an emergency and you have to 
respond and have all different levels of government, vertical 
and horizontal?
    Mr. Sternberg. I can give you an example in Mayflower and 
Vilonia. We are recognized as one of the emergency responders. 
We work with ADEM, we work with the Arkansas Department of 
Health on all public water systems.
    The first call we have, if we get a call from a water 
system with an emergency, we contact the health department and 
make sure they are aware of it. They ask us to provide reports 
back to them of our findings. They know we are going to be 
deployed.
    My field staff is in the field anyway and live all across 
the State. Normally I have someone who can get there within an 
hour and a half just because of where my staff lives.
    We work with all the local agencies. When we came to the 
city of Mayflower, we checked in with the city of Mayflower. 
They were the ones who requested us. When they request us we 
come with all our equipment and our manpower.
    We have the county, the Office of Emergency Services 
officer there. They contact and stay in communication with ADEM 
at the State office. We stay in communication with the health 
department.
    If they get any request through ADEM, it goes to the health 
department and comes to Rural Water. We are part of the 
Arkansas Water Agency Response Network. We work very closely 
with them, and there is no duplication of what we are doing. It 
works very well.
    Senator Duckworth. They are part of your team. You talked 
about how it is so important to have a person that is there on 
the ground that you know and trust. Do you do emergency 
training programs when it comes to water emergency response and 
that sort of thing? Is that something on an annual basis with 
all the different agencies along with the circuit riders? Is 
that being done?
    Mr. Sternberg. Actually, I am on the national level.
    Senator Duckworth. You are a busy man.
    Mr. Sternberg. I know. I have too many titles. I am the 
Chairman of the National Rural Water Association Emergency 
Response Committee. We meet at least twice a year. We do a 1-
week training located somewhere throughout the Nation. This 
year we are going to Florida. Last year, we were in Louisiana, 
and 3 years prior to that we did it in Lonoke, Arkansas. We 
have moved around to different places.
    We have invited other State circuit riders to come in to be 
trained and continually update them on new things out there. It 
is continuation of that work.
    In-State, my staff is all trained. Every month they come 
in, they are assigned different duties, to check out the 
generators, make sure they are maintained, making sure the load 
bank has been done on them. We actually load bank those 
generators so we know even if the motor is running on that 
generator that does not mean that generator is putting out 
power.
    All our generators have multi-voltage electric switches on 
them. When we pull up on site, it does not matter what voltage 
that system has. We can set it and forget it and go with it. We 
did it for a reason that way.
    Senator Duckworth. Wonderful. Thank you so much.
    Mr. Sternberg. Thank you.
    Senator Duckworth. I yield back, Mr. Chairman.
    Senator Boozman. Thank all of you for being here.
    Any follow up questions will be submitted to the witnesses 
for response. This record will be open for 2 weeks for 
additional submissions.
    Thank you all for sharing our stories and commenting on the 
legislation before us. I think today we have demonstrated that 
this is an issue where there really is a lot of common ground. 
We are going to be working very, very hard.
    Senator Duckworth and I had a great meeting yesterday 
talking about areas we are going to be working hard to get some 
things done.
    With that, the meeting is adjourned. Thank you again very 
much.
    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]
    [The referenced legislation follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
                                 <all>
</pre></body></html>
